WAIVER

Supreme Court of the United States

No. 20-6984
Ralph Frank Esposito, Jr. ve Arizona
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
sf Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

‘4 Tam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature bide Vlg.

 

ates 3/1 202 |
(Type or print) Name. lu Alen W iA Sov]

OMr. _/ CMs. Mrs, CO Miss

 
 

Firm,

w@ WL We
Address 2005 Ne Cemval Ave.
City & State Thaemy , At Zip 85004

 

Phone @02- 542- $584 :

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A.COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce vic. Rule Franle iho, Je

We Ded “racer ‘orally whetstone
P.O. Boy Lyyoe-

Tuam, AE 85 784

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 

 
